  DEPARTMENT OF HOMELAND SECURITY
                 F R   F CIAL USE ON Y




      Office of Inspector General

      The State of Washington’s Management 

        of State Homeland Security Grants
                 Awarded During
          Fiscal Years 2004 through 2006




OIG 08-98                                September 2008
                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                       September 26, 2008

                                           Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

The attached report presents the results of the audit of the State of Washington’s
Management of State Homeland Security Grants awarded during Fiscal Years 2004
through 2006. We contracted with the independent public accounting firm Cotton &
Company LLP to perform the audit. The contract required that Cotton & Company
perform its audit according to generally accepted government auditing standards. Cotton
& Company’s report identifies one reportable condition where State management of the
grant funds could be improved, resulting in three recommendations addressed to the
Administrator, Federal Emergency Management Agency. It also identifies two processes
for possible use by other jurisdictions. Cotton & Company is responsible for the attached
auditor’s report dated September 2, 2008, and the conclusions expressed in the report.

The recommendations herein have been discussed in draft with those responsible for
implementation. It is our hope that this report will result in more effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to
the preparation of this report.




                                       Richard L. Skinner 

                                       Inspector General 

September 2, 2008

Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, SW, Building 410
Washington, DC 20528

Dear Ms. Richards:

Cotton & Company LLP performed an audit of the State of Washington’s Management of
the Department of Homeland Security’s State Homeland Security Grants for Fiscal Years
2004 through 2006. The audit was performed in accordance with our Task Order No. TPD-
ARC-BPA-07-0016 dated January 16, 2008. This report presents audit results and includes
recommendations to help improve the State’s management of the audited State Homeland
Security Grant Programs.

We conducted our audit in accordance with applicable Government Auditing Standards, 2007
revision. The audit was a performance audit as defined by Chapter 1 of the Standards and it
included a review and report of program activities with a compliance element. Although this
audit report comments on costs claimed by the State, we did not perform a financial audit,
the purpose of which would be to render an opinion on the State of Washington’s financial
statements or funds claimed in the Financial Status Reports submitted to the Department of
Homeland Security.

We appreciate the opportunity to have conducted this audit. If you have questions, or require
further assistance, please contact me at 703.836.6701 or mikeg@cottoncpa.com.

Sincerely,

COTTON & COMPANY LLP



Michael W. Gillespie, CPA, CFE
Operations Managing Partner
Table of Contents/Abbreviations 


Executive Summary ........................................................................................................... 1


Background ........................................................................................................................ 2 


Results of Audit ................................................................................................................. 6 


     Personal Property Controls Need Improvement .......................................................... 7 

     Recommendations ...................................................................................................... 11 

     Management Comments and Auditor’s Analysis ...................................................... 12 


     Washington’s Linking of Projects to the State Strategy and Instituting an 

       Equipment Subcommittee are Best Practices .......................................................12 



Appendices
     Appendix A:          Purpose, Scope, and Methodology ...................................................... 14 

     Appendix B:          Organization Chart .............................................................................. 17 

     Appendix C:          Management Comments to the Draft Report ...................................... 18 

     Appendix D:          Report Distribution ............................................................................. 20 



Abbreviations
     DHS                Department of Homeland Security 

     FEMA               Federal Emergency Management Agency 

     FY                 Fiscal Year          

     OIG                Office of Inspector General 

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                   Cotton & Company LLP completed an audit of the State of
                   Washington’s Management of the Department of Homeland
                   Security State Homeland Security Grants awarded during Fiscal
                   Years 2004 through 2006. The objectives of the audit were to
                   determine if the State Administrative Agency (1) effectively and
                   efficiently implemented State Homeland Security Grant Programs,
                   (2) achieved program goals, and (3) spent funds in accordance with
                   grant requirements. The audit included a review of approximately
                   $121.6 million in Homeland Security Grants awarded by the
                   Federal Emergency Management Agency.

                   Overall, the State Administrative Agency effectively and
                   efficiently implemented the State Homeland Security Grant
                   Programs. The State used reasonable methodologies for assessing
                   threats, vulnerabilities, capabilities, and prioritized needs, and
                   allocated funding accordingly. It complied with requirements for
                   managing and reporting cash, obligating funds to local
                   jurisdictions, and expending funds within performance periods.
                   For expenditures tested, grant funds were expended according to
                   grant requirements and in alignment with the State Homeland
                   Security Strategy. The State and its subgrantees did not have
                   adequate control and accountability systems over personal property
                   purchased with grant funds.

                   The recommendations call for the Administrator, Federal
                   Emergency Management Agency, to require the State of
                   Washington to develop guidance and ensure implementation of
                   federal regulations governing controls over personal property.
                   Federal Emergency Management Agency officials provided verbal
                   concurrences with the recommendations. The State’s officials
                   concurred with the recommendations and provided a written
                   response, included as Appendix C.




          The State of Washington’s Management of State Homeland Security Grants

                       Awarded During Fiscal Years 2004 through 2006 


                                          Page 1 

Background
                 The Homeland Security Grant Program is a federal assistance grant
                 program administered by the U.S. Department of Homeland
                 Security (DHS), Grant Programs Directorate within the Federal
                 Emergency Management Agency (FEMA). The current Grant
                 Programs Directorate, hereafter referred to as FEMA, began with
                 the Office of Domestic Preparedness, which was transferred from
                 the Department of Justice to DHS in March 2003. The Office of
                 Domestic Preparedness was subsequently consolidated into the
                 Office of State and Local Government Coordination and
                 Preparedness which, in part, became the Office of Grants and
                 Training, and which subsequently became part of FEMA.

                 Although the grant program was transferred to DHS, applicable
                 Department of Justice grant regulations and legacy systems were
                 still used, as needed, to administer the program. For example, the
                 State Administrative Agency entered payment data into the Office
                 of Justice Programs’ Phone Activated Paperless Request System,
                 which was a drawdown payment system for grant funds.

                 Homeland Security Grant Program

                 The Homeland Security Grant Program provides federal funding to
                 help state and local agencies enhance their capabilities to prevent,
                 deter, respond to, and recover from threats or acts of terrorism.
                 The Homeland Security Grant Program encompassed several
                 federal grant programs, and depending on the fiscal year, included
                 some or all of the following programs, which are briefly described
                 below: State Homeland Security Grant Program, Law
                 Enforcement Terrorism Prevention Program, Citizen Corps
                 Program, Urban Areas Security Initiative, Metropolitan Medical
                 Response System Program, and Emergency Management
                 Performance Grants.

                 State Homeland Security Grant Program provides financial
                 assistance directly to each state and territory to prevent, respond to,
                 and recover from acts of terrorism. The program supports
                 implementation of the State Homeland Security Strategy to address
                 identified planning, equipment, training, and exercise needs.

                 Law Enforcement Terrorism Prevention Program provides law
                 enforcement communities with funds to support the following
                 prevention activities: information sharing to preempt terrorist
                 attacks, target hardening to reduce vulnerability of selected high
                 value targets, recognition and mapping of potential or developing

        The State of Washington’s Management of State Homeland Security Grants

                     Awarded During Fiscal Years 2004 through 2006 


                                        Page 2 

         threats, counterterrorism and security planning, interoperable
         communications, interdiction of terrorists before they can execute
         a threat, and intervention activities that prevent terrorists from
         executing a threat. These funds may be used for planning,
         organization, training, exercises, and equipment.

         Citizen Corps Program is DHS’ grass-roots initiative to actively
         involve all citizens in hometown security through personal
         preparedness, training, and volunteer service. Funds are used to
         support Citizen Corps Councils with efforts to engage citizens in
         preventing, preparing for, and responding to all hazards, including
         planning and evaluation, public education and communication,
         training, participation in exercises, providing proper equipment to
         citizens with a role in response, and management of Citizen Corps
         volunteer programs and activities.

         Urban Areas Security Initiative provides financial assistance to
         address unique planning, equipment, training, and exercise needs
         of high-risk urban areas, and to assist them in building an enhanced
         and sustainable capacity to prevent, respond to, and recover from
         threats or acts of terrorism. Allowable costs for urban areas are
         consistent with the State Homeland Security Program, and funding
         is expended based on Urban Area Homeland Security Strategies.

         Metropolitan Medical Response System Program supports
         jurisdictions in further enhancement and sustainment of their
         integrated, systematic, mass-casualty incident preparedness to
         respond during the first hours of a mass-casualty event. This
         includes planning, organizing, training, and equipping local
         jurisdictions with concepts, principles, and techniques that enhance
         preparedness to respond to the range of mass casualty incidents –
         from chemical, biological, radiological, nuclear, and explosive
         events to epidemic outbreaks, natural disasters, and large-scale
         hazardous materials incidents.

         Emergency Management Performance Grant funds are used to
         support comprehensive emergency management at the state and
         local levels and to encourage improvement of mitigation,
         preparedness, response, and recovery capabilities for all hazards.
         DHS is responsible for leading and supporting the nation in a
         comprehensive risk-based, all-hazards emergency management
         program, and these performance grant funds are a primary means
         of ensuring development and maintenance of such a program.
         Funds may also be used to support activities for managing
         consequences of acts of terrorism.


The State of Washington’s Management of State Homeland Security Grants

             Awarded During Fiscal Years 2004 through 2006 


                                Page 3 

         State Administrative Agency

         Each state governor appoints a State Administrative Agency to
         administer the Homeland Security Grant Program. The State
         Administrative Agency is responsible for managing these grant
         programs in accordance with established federal guidelines and
         allocating funds to local, regional, and other State government
         agencies.

         The Governor of Washington heads the State Homeland Security
         Infrastructure, which is a team comprised of the following
         components:

          •	   State Administrative Agency, Washington Military 

               Department 

          •	   Domestic Security Executive Group
          •	   State Emergency Management Council
          •	   Emergency Management Council Committee on Homeland 

               Security 

          •	   Regional Homeland Security Coordination Districts

         The Homeland Security Infrastructure’s mission is to “protect the
         people, property, environment, culture, and economy of
         Washington State from acts of terrorism, enhance Statewide all-
         hazards disaster resistance and minimize the effects of a terrorist
         attack, major disaster or other emergencies.” Within the
         Homeland Security Infrastructure, multi-discipline and multi-
         jurisdictional working groups, including the Strategy Development
         Working Group and the Committee on Homeland Security
         Equipment Subcommittee, were created to conduct functions such
         as strategy development and equipment review and approval.

         The Governor of the State of Washington designated the
         Washington Military Department, headed by The Adjutant
         General, as the State Administrative Agency. The Washington
         Military Department is comprised of four major operational
         divisions, including the Emergency Management Division, which
         administers the DHS grant program.

         The State is divided into nine regions, or Regional Homeland
         Security Coordination Districts, each with a designated region lead
         and a Homeland Security Coordinator. The Emergency
         Management Division awards DHS grant funds to the region lead,
         which, in turn, subawards funds to other local jurisdictions within
         the region. Two regions, however, are single-county regions due
         to their population density. The State’s regional approach was

The State of Washington’s Management of State Homeland Security Grants

             Awarded During Fiscal Years 2004 through 2006 


                                Page 4 

         developed to allocate grant funds, develop a prioritized list of
         equipment needs, develop and implement training and exercises,
         and create volunteer programs.

         The Washington Military Department and its Emergency
         Management Division’s Homeland Security organizational
         structure is depicted on the organizational chart in Appendix B.

         Grant Funding

         The State of Washington received approximately $121.6 million in
         funds from the Homeland Security Grant Program during Fiscal
         Years (FYs) 2004 through 2006. A breakdown of grant funds by
         year and funded activity is provided in Table 1. Note that not all
         funded activities were part of the Homeland Security Grant
         Program during each of the fiscal years.

                                                     Table 1
                               Washington Homeland Security Grant Awards
                                     Fiscal Years 2004 through 2006

                                          Grant Programs (‘000s)
                                        2004               2005           2006
                                     Homeland           Homeland       Homeland
            Funded Activity           Security           Security       Security      Total
                                       Grant              Grant          Grant
                                     Program            Program        Program
         State Homeland
         Security Grant              $ 33,408           $ 21,211       $ 12,730       $ 67,349
         Program
         Law Enforcement
         Terrorism Prevention         $   9,913          $     7,713   $     9,260    $ 26,886
         Program
         Citizen Corps
                                      $        694       $      269    $       385    $   1,348
         Program
         Urban Areas
                                   Not Included          $ 11,994      $     9,150    $ 21,144
         Security Initiative
         Metropolitan
         Medical Response          Not Included          $      683    $       697    $   1,380
         System Program
         Emergency
                                                                                Not
         Management                Not Included          $     3,459                  $   3,459
                                                                           Included
         Performance Grant
         Total                        $ 44,015           $ 45,329      $ 32,222       $ 121,566


         Cotton & Company completed an audit of the State of
         Washington’s Management of State Homeland Security Grants
         awarded during FYs 2004 through 2006. The audit objectives
         were to determine if the State Administrative Agency
         (1) effectively and efficiently implemented State Homeland

The State of Washington’s Management of State Homeland Security Grants

             Awarded During Fiscal Years 2004 through 2006 


                                    Page 5 

                   Security grant programs, (2) achieved program goals, and (3) spent
                   funds in accordance with grant requirements. The audit goal was
                   to identify problems and solutions that would help the State of
                   Washington prepare for and respond to terrorist attacks. Nine
                   researchable questions provided by the DHS Office of Inspector
                   General (OIG) established the framework for the audit. The
                   researchable questions were related to the State Administrative
                   Agency’s planning, management, and results evaluations of grant
                   activities. Appendix A provides additional details on the purpose,
                   scope, and methodology of this audit, including the nine
                   researchable questions.

                   Although this audit included a review of some of the costs claimed
                   with grant funds, we did not perform a financial audit of those
                   costs. Accordingly, we do not express an opinion on the State of
                   Washington’s financial statements or funds claimed in Financial
                   Status Reports submitted to FEMA.

                   Cotton & Company coordinated all audit efforts with the
                   Emergency Management Division, where we initially conducted an
                   entrance conference and performed subsequent test work. We also
                   reviewed subgrantee operations at three State agencies, four region
                   leads, and 11 local jurisdictions (listed in Appendix A).


Results of Audit
                   Overall, the State Administrative Agency effectively and
                   efficiently implemented the grant programs, using reasonable
                   methodologies for assessing threats, vulnerabilities, capabilities,
                   and prioritized needs, and allocated funding based upon them. The
                   State has adopted the eight National Priorities, the Target
                   Capabilities List, and its performance metrics. Each project
                   submitted for grant funding identifies the priorities and capabilities
                   it addresses and is scored on a prioritization matrix used to award
                   funds. On a periodic basis, each project’s assigned region lead
                   assesses its progress and reports to the State’s Emergency
                   Management Council Committee on Homeland Security.
                   Homeland Security project progress is monitored on the State’s
                   Balanced Scorecard, which identifies the State Strategy objective,
                   its project lead, performance measure target, related action plan,
                   and project status.

                   The State utilizes a combination of centralized and local
                   procurement methods. For example, the Equipment
                   Subcommittee, a multi-discipline committee under the Committee

          The State of Washington’s Management of State Homeland Security Grants

                       Awarded During Fiscal Years 2004 through 2006 


                                          Page 6 

              on Homeland Security, evaluates all equipment proposals. It
              includes a representative from the State General Services
              Administration, who identifies equipment that can be purchased
              under State contracts.

              The State Administrative Agency complied with requirements for
              managing and reporting cash, obligating funds to local
              jurisdictions, and expending funds within performance periods.
              For expenditures tested, grant funds were expended according to
              grant requirements and in alignment with the State Homeland
              Security Strategy.

              The State Administrative Agency has policies and procedures in
              place to monitor funds and activities at local levels to ensure that
              grant funds are spent according to grant requirements and State-
              established priorities. For those monitoring site visit reports we
              reviewed, however, the monitoring procedures performed by the
              State Administrative Agency were adequate.

              As demonstrated by the finding in this report, however, the State
              Administrative Agency did not ensure that personal property
              purchased with grant funds was recorded and maintained properly.

Personal Property Controls Need Improvement
              The State Administrative Agency did not ensure that subgrantees
              established and maintained effective control and accountability
              systems to ensure that property was (1) used solely for authorized
              purposes and (2) in a ready state for response purposes. These
              conditions existed because the State Administrative Agency did
              not provide clear guidance to subgrantees. As a result, personal
              property procured with DHS funding was not ready for response
              and could be at risk for unauthorized use.

              Code of Federal Regulations Title 44 § 13.3, Definitions, defines
              equipment and supplies as being personal property. Code of
              Federal Regulations Title 44 § 13.20, Standards for financial
              management, requires that effective control and accountability
              must be maintained for all such personal property procured with
              federal funds. Grantees and subgrantees must adequately
              safeguard personal property and ensure that it is used solely for
              authorized purposes.

              Equipment, being part of personal property, is defined by Code of
              Federal Regulations Title 44 § 13.3, Definitions, as tangible, non-
              expendable property having a useful life of more than 1 year and

     The State of Washington’s Management of State Homeland Security Grants

                  Awarded During Fiscal Years 2004 through 2006 


                                     Page 7 

         an acquisition cost of $5,000 or more per unit. Under Code of
         Federal Regulations Title 44 § 13.32, Equipment, the recipient is
         required to maintain property records on all equipment, to include
         cost, description, identification number, location, use, condition,
         and ultimate disposition state of the property. The regulation also
         requires that a control system be developed to ensure adequate
         safeguards to prevent loss, damage, or theft of property.

         Personal property, regardless of equipment or supply status, must
         be ready for response and used for its intended and authorized
         purposes. Property items that do not qualify as equipment may
         still be costly, attractive, and portable. As such, it is important to
         maintain adequate controls over personal property that it is
         susceptible to theft; e.g., satellite radios, global positioning units,
         and cameras.

         During our site visits to State agencies and regions, we conducted
         property testing over personal property to ensure that it was in use,
         supported by financial documentation, approved by the State,
         allowed by the State-Approved Equipment List, and recorded
         according to Code of Federal Regulations Title 44 § 13.32,
         Equipment. We used different methods to select property at each
         site due to varying local inventory or property recordkeeping
         methods. Three of the four regions and one of the three State
         agencies we visited had inadequate control and accountability for
         personal property procured with DHS grant funds.

         In general, we were only able to locate personal property selected
         for physical inspection with the help of regional or State agency
         emergency management staff. They were able to recall where
         items were and who had possession of the property, or were able to
         track down persons with knowledge of the property after multiple
         phone calls over the course of hours or days.

         Complete documentation did not exist at every site visited that
         would have enabled us to locate property quickly and easily. A
         state agency or region must be able to quickly and easily identify
         the location of equipment needed for response in the event of a
         disaster. A detailed discussion of these results follows.

         Property Controls at Regions. One region visited did not have a
         county asset tag or other identifier for three items tested. We were
         unable to trace one of the three items back to property records,
         because records for that item lacked a unique identification
         number. We also identified several radios purchased in April 2007


The State of Washington’s Management of State Homeland Security Grants

             Awarded During Fiscal Years 2004 through 2006 


                                Page 8 

         that had yet to be tagged and had been kept in a storage room for
         more than a year after purchase.

         When the region purchases property, it records the property’s
         location on a Receipt of Equipment Form signed by the subgrantee
         that takes possession of the property. The property form does not,
         however, reflect the property’s physical location; it only identifies
         the initial recipient of the property. It also does not necessarily
         include the property’s final recipient or final location. The region
         uses the grant’s Catalog of Federal Domestic Assistance number to
         record the use of the property.

         A monitoring visit conducted by the State Administrative Agency
         in March 2008 indicated that the State was aware that this
         particular region did not have a “regional equipment inventory
         methodology.” The State Administrative Agency recommended
         that the region begin to track “equipment distributed through the
         region somehow,” but provided no specific guidance.

         At the time of our visit, the region was in the process of developing
         stronger property controls and conducting a full inventory of all
         personal property (not just equipment) purchased with DHS grant
         funds. As part of the inventory, the region was updating and
         completing its property records by asking its subgrantees to
         provide serial numbers, date received, date inventoried, disposal
         status, and total cost of all property. The Regional Coordinator
         was developing policies and procedures to barcode and track all
         property items. However, the inventory was not completed as of
         the end of our fieldwork. Once all property is eventually barcoded,
         subgrantees will be required to scan equipment every 2 years to
         verify its existence.

         A second region visited had a detailed inventory system that
         provided information on all personal property and could be
         queried. The system had the capability to create hand receipts for
         subgrantees to sign when property passed into their possession.
         The system could also create certification letters used by the local
         jurisdictions biennially to certify that all property purchased under
         grant funds was still in their possession. Although certification
         letters contained fields for subgrantees to record the current
         condition of their property, those fields were not complete on all of
         the certification letters returned to the region. The Program
         Coordinator in charge of the inventory system and property
         purchasing was unaware of this omission. He also told us that
         equipment use was not recorded, because its use was self-evident.


The State of Washington’s Management of State Homeland Security Grants

             Awarded During Fiscal Years 2004 through 2006 


                                Page 9 

         Of the 13 property items inspected, 7 were not tagged, and 3 of the
         items could not be traced back to property records by a serial
         number. The region required two business days to locate two
         ballistic shields despite using the detailed inventory system.
         Property location is typically recorded in the inventory system as
         either the receiving agency or the receiving team within the
         agency. The physical location of the property was not recorded.

         Therefore, although the ballistic shields belonged to the bomb
         team, it was difficult to locate a contact within the bomb team and
         then locate the actual storage location of the shields. This could be
         due in part to the Program Coordinator’s absence for training
         during the time of our site visit. In a later interview, the Program
         Coordinator remarked that he was surprised by how long it took
         and how many people were required to locate pieces of property
         without his assistance. While the Program Coordinator thought he
         could have located the equipment readily, the region should not be
         dependent on one person’s memory or abilities to locate property.

         During our site visit to a third region, we selected for inspection a
         Holmatro Combi Tool (a pneumatic-powered rescue tool) held by
         a local fire department. We were told that all of the Holmatro
         Combi Tools were being used in a training event, so we visited the
         training site. The particular Holmatro Combi Tool we were trying
         to identify by serial number was not present at the training site.
         The Fire Department captain aiding us in our search contacted five
         other fire stations before locating an employee who could identify
         the tool and the serial number for our comparison.

         This situation is an example of a potentially larger issue. A
         significant number of similar tools available for rescue response
         cannot be tracked at the fire station level. In the event of an
         emergency, multiple calls would have to be placed to locate a fire
         station or fire department with the property needed to respond to
         the emergency.

         Property Controls at a State Agency. One of the three State
         agencies visited had inadequate control and accountability for
         personal property procured with DHS grant funds. This State
         agency’s property inventory system was developed for training
         and exercise purposes and to allow a training instructor to track
         property constantly being moved to meet various training needs.
         It is also used to perform an inventory of response property during
         a tabletop exercise, whereby participants discuss problems and
         procedures, simulating an emergency situation. The inventory


The State of Washington’s Management of State Homeland Security Grants

             Awarded During Fiscal Years 2004 through 2006 


                               Page 10 

         system was not initially intended to include all DHS grant-funded
         property, but only property used for training and exercises.

         The State agency inventoried only 3 of 40 Breathe Easy Hoods
         purchased (budgeted at $578.27 per unit) and none of the 39
         Rapid Response Air Purifying Systems purchased (budgeted at
         $679.57 per unit). The inventory system used by this agency was
         incomplete and did not include price, use, condition, disposition,
         or identification number of the items inventoried. Furthermore,
         most of the invoices, purchase orders, and bid documentation are
         not maintained by the agency, because the majority of purchases
         are made centrally by the State and shipped directly to the agency.

         During our review of this State agency’s property inventory, we
         identified three unassigned satellite phones and four unassigned
         Global Positioning System units. The Program Coordinator
         described these items as being cached (or in reserve) for use when
         agency personnel need additional phones or Global Positioning
         System units during a response to an incident or disaster. We later
         learned through a review of correspondence between this State
         agency and the Emergency Management Division that these items
         and others were added to the agency’s State-Approved Equipment
         List. This occurred after the agency was notified that it was
         approximately $12,000 under budget for equipment due to price
         reductions on proposed equipment.

         Grant agreements between the State Administrative Agency and
         State agencies, and between the State Administrative Agency and
         regions contained references to federal regulations requiring
         controls over personal property to varying degrees. The State’s
         subgrantees, however, did not fully comply with requirements, and
         State Administrative Agency officials did not ensure such
         compliance.

Recommendations
         We recommend that the Administrator, Federal Emergency
         Management Agency, require the State of Washington’s
         Emergency Management Division to:

         Recommendation #1: Develop guidance for subgrantees that
         clarifies control requirements for personal property purchased with
         DHS grant funds.

         Recommendation #2: Direct subgrantees to establish and
         maintain specific property records, as required by federal

The State of Washington’s Management of State Homeland Security Grants

             Awarded During Fiscal Years 2004 through 2006 


                               Page 11 

              regulations, for equipment purchased with DHS grant funds that
              meets the $5,000 and 1-year life thresholds.

              Recommendation #3: Direct subgrantees to establish and
              maintain property records for all other personal property purchased
              with DHS grant funds, with special emphasis on sensitive and
              portable equipment.

     Management Comments and Auditor’s Analysis
              We received verbal concurrences on the recommendations from
              FEMA officials. The State Administrative Agency officials also
              concurred with the three recommendations. In their written
              comments, included in Appendix C, the State officials said that
              language used in contracts since 2006 provides clear guidance as to
              expectations in personal property/equipment control. The State
              officials noted that they continue to strengthen practices, improve
              written agreements, and enhance involvement with subgrantees.

              We agree that this action addresses the intent of the
              recommendations. As such, these recommendations are now
              resolved and closed.

Washington’s Linking of Projects to the State Strategy and
Instituting an Equipment Subcommittee are Best Practices
              During the course of this performance audit of DHS grant funds
              awarded to the State of Washington, we identified two processes as
              best practices. The Administrator, Federal Emergency
              Management Agency, should consider evaluating the advantages
              and benefits of these processes for possible use by other
              jurisdictions.

              Project Link to State Strategy. As mentioned above, State
              agencies and regions submit proposed projects to be evaluated for
              grant funding. The State of Washington adopted and linked its
              State Strategy to the National Priorities and Target Capabilities
              List and established goals to support them. For each project
              submitted for funding, the agency or region must link its proposed
              project to the State Strategy, indicate which National Priority and
              Target Capability it addresses, and establish action plans to execute
              project objectives. This linking of individual projects to the State
              Strategy is a best practice, because it ensures that funds are used to
              advance State-established strategic goals and objectives.
              Establishing step-by-step action plans linked to goals and
              objectives increases the likelihood of successful implementation.
     The State of Washington’s Management of State Homeland Security Grants

                  Awarded During Fiscal Years 2004 through 2006 


                                    Page 12 

         Equipment Subcommittee. Another best practice highlighted is
         the formation of the Committee on Homeland Security Equipment
         Subcommittee. All equipment purchases proposed by state
         agencies, regions, and local jurisdictions are reviewed by the
         Equipment Subcommittee to verify eligibility with the DHS
         Authorized Equipment List. Where applicable, a representative
         from the State General Services Administration indicates when the
         equipment is available through a State contract. When contracts
         are executed between the State Administrative Agency and a
         subrecipient, proposed equipment items have already been
         reviewed and evaluated, thereby reducing the risk of ineligible
         equipment purchases and achieving cost efficiencies by utilizing
         centralized State procurement contracts.




The State of Washington’s Management of State Homeland Security Grants

             Awarded During Fiscal Years 2004 through 2006 


                               Page 13 

Appendix A
Purpose, Scope, and Methodology


                     The purpose of the audit was to determine if the State of
                     Washington effectively and efficiently implemented the State
                     Homeland Security Grant Program, achieved program goals, and
                     spent funds according to grant requirements. The goal of the audit
                     was to identify problems and solutions that could help the State of
                     Washington prepare for and respond to terrorist attacks. The audit
                     further enabled us to answer the following researchable questions:

                     •	   Did the State use reasonable methodologies for assessing
                          threat, vulnerability, capability, and prioritized needs?

                     •	   Did the State appropriately allocate funding based on threats,
                          vulnerabilities, capabilities, and priorities?

                     •	   Has the State developed and implemented plans to measure
                          improvements in preparedness as a result of the grants and
                          have such measurement efforts been effective?

                     •	   Are the State’s procurement methodologies (centralized, local,
                          or combination) reasonable and in conformance with its
                          homeland security strategies?

                     •	   Does the State Administrative Agency have procedures in
                          place to monitor the funds and activities at the local level to
                          ensure that grant funds are spent according to grant
                          requirements and the State-established priorities? Have these
                          monitoring procedures been implemented and are they
                          effective?

                     •	   Did the State comply with cash management requirements and
                          DHS financial and status reporting requirements for the grant
                          programs and did local jurisdictions spend grant funds
                          advanced by the State in a timely manner and, if not, what
                          caused the delays?

                     •	   Were grant funds used according to grant requirements and
                          State-established priorities?

                     •	   Was the time it took the State to get funds/equipment to first
                          responders (from the time the funds/equipment were available
                          to the State until they were disbursed/provided to the
                          jurisdiction) reasonable (auditor judgment), and if not, what
                          caused the delays?


            The State of Washington’s Management of State Homeland Security Grants

                         Awarded During Fiscal Years 2004 through 2006 


                                           Page 14 

Appendix A
Purpose, Scope, and Methodology


                     •	   Are there best practices that can be identified and shared with
                          other states and the DHS?

                     The scope of the audit included the following grant programs,
                     described in the Background section of this report.

                     •    FY 2004 State Homeland Security Grant Program
                     •
                     •    FY 2005 State Homeland Security Grant Program
                     •
                     •	   FY 2006 State Homeland Security Grant Program

                     The audit methodology included work at DHS Headquarters, State
                     of Washington offices responsible for grant management, and
                     various subgrantee locations. To achieve our audit objective, we
                     analyzed data, reviewed documentation, and interviewed key State
                     and local officials directly involved in managing and administering
                     the State of Washington’s Homeland Security Grant Programs.

                     We conducted site visits to the following 4 region leads, 11 local
                     jurisdictions, and 3 State agencies:

                     •	   Region 2, Kitsap County Emergency Management (Region
                          Lead)
                          o	 Bainbridge Island Fire Department
                          o	 Central Kitsap Fire & Rescue
                          o	 Kitsap County Sheriff’s Office


                     •	   Region 5, Pierce County Emergency Management (Single-
                          County Region)
                          o	 Region 5, Regional Intelligence Group
                          o	 Tacoma Fire Department
                          o	 Pierce County Bomb Team
                          o	 Fife Fire Department – Hazmat Team
                          o	 Pierce County Sheriff’s Department – Air Operations


                     •	   Region 6, King County Emergency Management (Single-
                          County Region)
                          o	 Bellevue Fire Department
                          o	 Seattle Police Department


                     •	   Region 9, Spokane County Emergency Management (Region
                          Lead)
                          o	 Spokane County Sheriff’s Office


            The State of Washington’s Management of State Homeland Security Grants

                         Awarded During Fiscal Years 2004 through 2006 


                                           Page 15 

Appendix A
Purpose, Scope, and Methodology


                     •   Washington State Patrol (State Agency)

                     •   Department of Agriculture (State Agency)

                     •   Department of Health, Public Health Lab (State Agency)

                     At each location, we interviewed responsible officials, reviewed
                     documentation supporting State and subgrantee management of
                     awarded grant funds, and physically inspected a sample of
                     equipment procured with grant funds.

                     We conducted the audit between January 2008 and June 2008 in
                     accordance with Government Auditing Standards as prescribed by
                     the Comptroller General of the United States (Yellow Book, 2007
                     Revision). Those standards require that we plan and perform the
                     audit to obtain sufficient, appropriate evidence to provide a
                     reasonable basis for our findings and conclusions based on our
                     audit objectives. We believe that the evidence obtained provides a
                     reasonable basis for our findings and conclusions based on our
                     audit objectives.

                     Although this audit included a review of costs claimed, we did not
                     perform a financial audit of those costs. We were not engaged to
                     and did not perform a financial statement audit, the objective of
                     which would be to express an opinion on specified elements,
                     accounts, or items. Accordingly, we were neither required to, nor
                     expressed, an opinion on costs claimed for grant programs
                     included in the scope of the audit. Had we been required to
                     perform additional procedures, or conducted an audit of the
                     financial statements in accordance with generally accepted
                     auditing standards, other matters might have come to our attention
                     that would have been reported. This report relates only to the
                     programs specified and does not extend to any financial statements
                     of the State of Washington.

                     While the audit work was performed and the report was prepared
                     under contract, results are being reported by the DHS Office of
                     Inspector General to appropriate Federal Emergency Management
                     Agency officials and State of Washington officials.




            The State of Washington’s Management of State Homeland Security Grants

                         Awarded During Fiscal Years 2004 through 2006 


                                           Page 16 

Appendix B
Organization Chart


            Washington State Homeland Security Infrastructure




            The State of Washington’s Management of State Homeland Security Grants
                         Awarded During Fiscal Years 2004 through 2006 


                                           Page 17 

Appendix C
Management Comments to the Draft Report




            The State of Washington’s Management of State Homeland Security Grants

                         Awarded During Fiscal Years 2004 through 2006 


                                           Page 18 

Appendix C
Management Comments to the Draft Report




            The State of Washington’s Management of State Homeland Security Grants

                         Awarded During Fiscal Years 2004 through 2006 


                                           Page 19 

Appendix D
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Deputy Administrator, National Preparedness Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison
                      National Preparedness Directorate Audit Liaison

                      Office of Management and Budget

                      Homeland Bureau Chief
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




             The State of Washington’s Management of State Homeland Security Grants

                          Awarded During Fiscal Years 2004 through 2006 


                                            Page 20 

Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528,

The OIG seeks to protect the identity of each writer and caller.
